TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Taxpayers That Call Local Taxpayer
                  Assistance Center Telephone Numbers Are
                     Unable to Schedule Appointments to
                         Resolve Tax Account Issues



                                      September 21, 2006

                              Reference Number: 2006-40-165




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 21, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Taxpayers That Call Local Taxpayer Assistance
                               Center Telephone Numbers Are Unable to Schedule Appointments to
                               Resolve Tax Account Issues (Audit # 200640031)

 This report presents the result of our review to determine whether taxpayers receive quality
 customer service when calling the Internal Revenue Service (IRS) local area office telephone
 numbers to schedule appointments.

 Impact on the Taxpayer
 The IRS provides taxpayers the option of obtaining face-to-face assistance at 400 Taxpayer
 Assistance Centers (TAC). Our review determined that auditors were unable to schedule
 appointments when they called the TAC to schedule an appointment. The convenience of
 scheduling appointments could encourage taxpayers to try to resolve tax account problems
 earlier, and provide them the opportunity to reduce their wait times at the TACs, thus reducing
 taxpayer burden.

 Synopsis
 The IRS suggests that taxpayers visit TACs when they have complex tax issues, need to resolve
 tax problems relating to their tax accounts, have questions about how the tax law applies to their
 individual income tax returns, or feel more comfortable talking with someone in person. The
 law1 requires the IRS to publish the telephone numbers (3709 Lines) and addresses of its TACs

 1
  IRS Restructuring and Reform Act of 1998, Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C.,
 and 49 U.S.C.).
                           Taxpayers That Call Local Taxpayer Assistance Center
                         Telephone Numbers Are Unable to Schedule Appointments
                                      to Resolve Tax Account Issues


in local telephone books so every taxpayer can have convenient access to the IRS. The 3709
Lines received approximately 500,000 calls during the 2006 Filing Season2 and approximately
1 million calls during Fiscal Year 2005.
For all 50 TACs we contacted during this review to schedule appointments (36 tax account
issues and 14 tax law issues), the telephone messages generally were consistent, accurate, and
properly advised the taxpayers of their options. Appointments are to be made for taxpayers with
complex tax account issues, not to ask tax law questions or prepare tax returns. However, for
36 calls made to the 3709 Lines to schedule appointments to resolve a tax account issue, auditors
were able to schedule only 5 appointments. Auditors were unable to schedule the other
31 appointments because 4 TAC employees did not return the calls and 27 TAC employees that
did return the calls would not, for various reasons, allow the auditors to schedule appointments.
IRS guidelines state that messages should be retrieved locally or remotely 3 times per day and
calls should be returned within 2 business days. TAC employees returned 42 (84 percent) of
50 calls. However, 5 (10 percent) calls were not returned within
2 days and 8 (16 percent) calls were not returned at all.            Auditors that called
                                                                                   TAC 3709 Lines were
This happened because employees were not following Field               unable to schedule
Assistance Office guidelines for returning telephone calls and            appointments.
scheduling appointments. In addition, Field Assistance Office
internal guidelines are unclear and obsolete. The
Field Assistance Office has not updated its guidelines to reflect the current purpose of the
3709 Line Program. There are no criteria for TAC employees to follow to determine if an
appointment should be made for any tax account issue or if an appointment can be made only for
complex issues that cannot be resolved over the telephone.
                                  Inconsistent and inaccurate information prevented us from
       The lack of accurate and   determining the overall impact of the 3709 Line Program and
        complete management       how it relates to the overall goals of the Field Assistance
     information hinders the Field
                                  Office. The Field Assistance Office does not maintain an
     Assistance Office’s ability to
           provide effective      overall list or database of the number of calls returned, or
        management oversight.     appointments scheduled through the 3709 Lines. Also, the
                                  data gathered are not accurate or complete. The lack of
accurate and complete management information hinders the Field Assistance Office’s ability to
provide effective management oversight. Although only a small number of taxpayers currently
use the 3709 Lines to request appointments, without an accurate overview of the Program,
management cannot provide adequate oversight or make proper determinations regarding
procedures and policies.



2
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                        2
                     Taxpayers That Call Local Taxpayer Assistance Center
                   Telephone Numbers Are Unable to Schedule Appointments
                                to Resolve Tax Account Issues


Reliable information will be essential to IRS management as they develop the Taxpayer
Assistance Blueprint, which is a study for the IRS to develop a 5-year plan to improve taxpayer
services. Accurate and complete data will be essential in deciding what services taxpayers need
or desire.

Recommendations
We recommended the Commissioner, Wage and Investment Division, determine the purpose and
mission of the 3709 Line Program and the methodology to achieve the Program’s goals, which
includes updating internal guidelines with the purpose and mission of the Program and ensuring
TAC managers understand and are aware of the purpose and guidelines for scheduling
appointments; provide the TACs with standardized internal controls for ensuring calls to the
3709 Lines are returned and appointments are appropriately scheduled; establish procedures for
the Field Assistance Office to provide sufficient oversight of the 3709 Line Program to ensure it
is meeting Program objectives; and develop or modify the Field Assistance Office management
information systems to ensure they have the information needed to provide an overview of the
3709 Line Program; and establish a control to ensure the delivery of services appropriate to meet
the Field Assistance Office’s objectives and goals.

Response
IRS management agreed with our recommendations. The IRS will revise its Internal Revenue
Manual to more clearly define the purpose and mission of the 3709 Line Program, discuss
guidelines with employees in group meetings to ensure their understanding of the purpose and
supporting procedures, and review IRS.gov and recorded messages to ensure they effectively
explain the Program’s purpose to taxpayers. The IRS will develop a standardized method to
capture the number of calls returned and the number of appointments made. Clerical employees
will be used for transcription and routine callbacks, but calls will be transferred to technical
employees whenever a taxpayer requests an appointment. A new quality review system will be
established to ensure adherence to the revised guidelines. Periodic reviews will be conducted to
ensure calls are returned within 2 days and requested appointments are scheduled. The IRS is
assessing its current data reporting requirements for the 3709 Line Program and evaluating the
best method for capturing this data. Management’s complete response to the draft report is
included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Michael E.
McKenney, Assistant Inspector General for Audit (Wage and Investment Income Programs), at
(202) 622-5916.



                                                                                                   3
                           Taxpayers That Call Local Taxpayer Assistance Center
                          Telephone Numbers Are Unable to Schedule Appointments
                                      to Resolve Tax Account Issues




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Taxpayers Are Unable to Schedule Appointments at the
          Taxpayer Assistance Centers .......................................................................Page 3
                    Recommendation 1:..........................................................Page 5

                    Recommendations 2 and 3: ......................................................... Page 6

          The Field Assistance Office Does Not Have Reliable
          Management Information Needed to Obtain an Accurate
          Overview of the 3709 Line Program ............................................................Page 6
                    Recommendation 4:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Taxpayer Assistance Centers Called .....................................Page 14
          Appendix VI – Taxpayer Assistance Center Automated Script ...................Page 15
          Appendix VII – Contact My Local Office Webpage on IRS.gov.................Page 16
          Appendix VIII – Management’s Response to the Draft Report ...................Page 18
        Taxpayers That Call Local Taxpayer Assistance Center
       Telephone Numbers Are Unable to Schedule Appointments
                   to Resolve Tax Account Issues




                   Abbreviations

BPMS            Business Performance Management System
IRS             Internal Revenue Service
TAC             Taxpayer Assistance Center
                       Taxpayers That Call Local Taxpayer Assistance Center
                      Telephone Numbers Are Unable to Schedule Appointments
                                  to Resolve Tax Account Issues




                                            Background

The Internal Revenue Service (IRS) provides taxpayers the option of obtaining face-to-face
assistance at 400 Taxpayer Assistance Centers (TAC). The IRS suggests that taxpayers visit the
TACs when they have complex tax issues, need to resolve tax problems relating to their tax
accounts, have questions about how the tax law applies to their individual income tax returns, or
feel more comfortable talking with someone in person. The Field Assistance Office1 has overall
responsibility for overseeing the 400 TACs in 5 geographical areas throughout the country.
According to the IRS, these TACs served about 7 million taxpayers during Fiscal Year 2005.
Approximately 2.5 million of these taxpayers visited for assistance with an account issue.
              Figure 1: Taxpayer Contacts at the TACs for Fiscal Year 2005




             Source: IRS management information reports and the Fiscal Year 2006 Program Letter.
“Other Contacts” include, for example, assisting taxpayers that call the TACs or need help with the U.S. Departing
Alien Income Tax Statement (Form 2063), date stamping tax returns brought in by taxpayers, helping taxpayers with
general information such as addresses and directions to other IRS offices or other Federal Government agencies,
and responding to unsolicited correspondence.




1
 The Field Assistance Office is within the Wage and Investment Division Customer Assistance, Relationships, and
Education function.
                                                                                                          Page 1
                       Taxpayers That Call Local Taxpayer Assistance Center
                      Telephone Numbers Are Unable to Schedule Appointments
                                  to Resolve Tax Account Issues


Despite overall declines in the number of taxpayer contacts over the last 3 fiscal years, the IRS
has reported account contacts have increased. The IRS 3709 Line2 Program is designed to assist
taxpayers with account issues. In its 2005–2009 Strategic Plan, the IRS revised its customer
service commitment to providing “excellent service to taxpayers and enforcing America’s tax
laws in a balanced manner.” The focus of the face-to-face service offered by the TACs is to
move away from information and filing assistance toward compliance and enforcement
activities.
The law3 requires the IRS to publish the telephone numbers (3709 Lines) and addresses of its
TACs in local telephone books so every taxpayer can have convenient access to the IRS. The
3709 Lines received approximately 500,000 calls during the 2006 Filing Season4 and
approximately 1 million calls during Fiscal Year 2005. These calls are not reported as a separate
balanced measure but are included in the “Other” category shown in Figure 1.
The automated message a taxpayer hears when calling a 3709 Line advises the caller that, if he
or she is calling to schedule an appointment for help with a Federal tax problem or to change an
appointment, the caller should leave a name and telephone number, with area code, and someone
from the IRS will call back within 2 business days. It further explains that a taxpayer cannot
make an appointment to have a tax return prepared but must come into the office to do so.
Appendix VI provides the approved standardized script taxpayers hear when they call the
3709 Lines. The IRS public Internet web site (IRS.gov) also states taxpayers can leave a
message requesting an appointment to resolve a tax account issue. Appendix VII provides the
standardized message taxpayers see when they go to IRS.gov.
This review was performed in the Wage and Investment Division Customer Assistance,
Relationships, and Education function, Field Assistance Office in Atlanta, Georgia, during the
period April through July 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




2
  The local area office telephone numbers for the TACs are referred to as the 3709 Lines.
3
  IRS Restructuring and Reform Act of 1998, Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C.,
and 49 U.S.C.).
4
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                            Page 2
                    Taxpayers That Call Local Taxpayer Assistance Center
                   Telephone Numbers Are Unable to Schedule Appointments
                               to Resolve Tax Account Issues




                                Results of Review

Taxpayers Are Unable to Schedule Appointments at the Taxpayer
Assistance Centers
For all 50 TACs contacted during this review to schedule appointments (36 tax account issues
and 14 tax law issues), the telephone messages generally were consistent, accurate, and properly
advised the taxpayers of their options. Appointments are to be made for taxpayers with complex
tax account issues, not to ask tax law questions. Taxpayers that seek tax return preparation
assistance must visit the TACs to schedule an appointment. However, for the 36 calls made to
the 3709 Lines to schedule appointments to resolve tax account issues, auditors were able to
schedule only 5 appointments. Auditors were unable to schedule the other 31 appointments
because 4 TAC employees did not return the calls and 27 TAC employees that did return the
calls would not, for various reasons, allow the auditors to schedule appointments. See
Appendix V for the TACs included in our testing.
This happened because employees were not following Field Assistance Office guidelines for
returning telephone calls and scheduling appointments. In addition, Field Assistance Office
internal guidelines are unclear and obsolete. The Field Assistance Office has not updated its
guidelines to reflect the current purpose of the 3709 Line Program. There are no criteria for the
TAC employees to follow to determine if an appointment should be made for any tax account
issue or if an appointment can be made only for complex issues that cannot be resolved over the
telephone.
The convenience of scheduling appointments could encourage taxpayers to try to resolve tax
account problems earlier, thus reducing taxpayer burden. In addition, allowing taxpayers to call
the 3709 Lines to schedule appointments for tax account issues provides them the opportunity to
reduce their wait times at the TACs. TACs could better manage resources by scheduling
appointments during times when taxpayer traffic is usually lower. TAC employees that know in
advance they will be assisting a specific taxpayer with a specific tax issue could prepare for the
appointment and might not feel as rushed. This would provide better customer service.

Employees did not return telephone calls timely, and employees did not follow
guidelines for scheduling appointments
TAC employees returned 42 (84 percent) of 50 calls. However, 5 (10 percent) calls were not
returned within 2 business days and 8 (16 percent) calls were not returned at all. IRS guidelines
require messages to be retrieved locally or remotely 3 times per day and calls to be returned
within 2 business days. TAC managers at the selected TACs stated calls were not returned

                                                                                            Page 3
                      Taxpayers That Call Local Taxpayer Assistance Center
                     Telephone Numbers Are Unable to Schedule Appointments
                                 to Resolve Tax Account Issues


timely because they did not have a designated backup employee assigned to return calls when the
primary employee was out of the office.
For 38 (90 percent) of 42 calls that were returned, employees did not route the calls to TAC
managers when auditors requested appointments. IRS guidelines require employees to route the
calls to TAC managers when appointments are requested. The TAC managers will contact the
taxpayers to obtain any necessary information and schedule the appointments. TAC managers at
the selected TACs explained that employees did not know the criteria for scheduling
appointments and/or employees did not follow guidelines.

The purpose of the 3709 Line Program is unclear, and the guidelines are not
designed to ensure taxpayer appointments are scheduled
The law established the requirement that the IRS publish local office telephone numbers in local
telephone books so every taxpayer can have convenient access to the IRS. The Field Assistance
Office decided to use the 3709 Lines as a method for taxpayers to schedule appointments to
come into the TACs to discuss complex tax account issues that cannot be resolved over the
telephone.
Initially, the IRS established Problem Solving Days to assist taxpayers that had tax issues they
could not get resolved.5 In Fiscal Year 2002, the IRS replaced Problem Solving Days with
“Everyday Tax Solutions.” The goal of Everyday Tax Solutions is to reduce the expenditure of
taxpayers’ time and to make problem resolution more convenient and available to all taxpayers.
If taxpayers call the IRS toll-free help line (1-800-829-1040) to request face-to-face
appointments for issues that cannot be resolved over the telephone, assistors are to provide the
3709 Line telephone number for the nearest TAC and advise them they are to leave a message.
An IRS employee will return the call, at which time the taxpayer can schedule an appointment
for a face-to-face meeting.
Internal guidelines do not state this intent, and Field Assistance Office officials have not
appropriately communicated it to TAC employees. This has led to confusion for TAC
employees and taxpayers. For example, below are the messages the IRS provides on the
3709 Lines and on IRS.gov:
•   The 3709 Lines message states:
        If you [the taxpayer] are calling to request an appointment for help with a Federal
        tax problem or change an appointment, please leave your name and telephone
        number, with area code, and we will call you within 2 business days.



5
 Problem Solving Days were IRS-sponsored events that gathered IRS employees from various functions, during
nontraditional working hours, to help taxpayers resolve tax issues they had not yet been able to solve.

                                                                                                      Page 4
                       Taxpayers That Call Local Taxpayer Assistance Center
                      Telephone Numbers Are Unable to Schedule Appointments
                                  to Resolve Tax Account Issues


•     The IRS Internet web site states:
          If you [the taxpayer] need to resolve a tax problem, have questions about how the
          tax law applies to your individual tax return, or you’re more comfortable talking
          with someone face-to-face, visit your local Taxpayer Assistance Center where you
          can spread out your records and talk with an IRS representative across the
          counter. No appointment is necessary - just walk in - but if you prefer, you can
          call a local number . . . and leave a message requesting an appointment to resolve
          a tax account issue.
However, internal guidelines do not provide guidance on what is considered a complex tax issue
that warrants a face-to-face meeting. Generally, managers in each of the 50 TACs tested stated
the purpose of the 3709 Line was for the IRS to comply with the law and provide taxpayers a
method to schedule appointments. Field Assistance Office officials stated an appointment can be
made for issues that cannot be resolved over the telephone. Guidelines do not provide
instruction on what tax issues warrant appointments.
The Field Assistance Office Headquarters was not aware that TAC employees were not allowing
taxpayers to schedule appointments for tax account issues. Furthermore, Field Assistance Office
analysts had not identified any problems with the 3709 Line Program. Analysts review quarterly
reports, tracking the number of taxpayer calls (incoming) and ensuring TAC employees are
returning calls (outgoing) within 2 business days. However, they had not identified any
problems. After raising this concern to Field Assistance Office management, we were advised
that steps are being taken to review internal controls and revise procedures to ensure the purpose
of the 3709 Line Program is clearly defined.
Internal controls, also called management controls, should provide reasonable assurance that the
objectives of the agency or program are being achieved. Internal control activities help ensure
management’s directives are carried out. The Standards for Internal Control in the Federal
Government6 state internal control systems need to be monitored, through ongoing monitoring
activities, separate evaluations, or a combination of the two. When procedures are not followed
and internal controls are not in place to identify problems, program missions and goals can be
affected.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Determine the purpose and mission of the 3709 Line Program and the
methodology to achieve the Program’s goals. This includes updating internal guidelines to



6
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                               Page 5
                    Taxpayers That Call Local Taxpayer Assistance Center
                   Telephone Numbers Are Unable to Schedule Appointments
                               to Resolve Tax Account Issues


include the purpose and mission of the Program and ensuring TAC managers understand and are
aware of the purpose and guidelines for scheduling appointments.
       Management’s Response: IRS management agreed with this recommendation and
       will revise the Internal Revenue Manual to more clearly define the purpose and mission
       of the 3709 Line Program, and provide practical guidelines for when a scheduled
       appointment is appropriate. The IRS also stated the new guidelines will be discussed
       with employees in group meetings to ensure their understanding of the purpose and
       supporting procedures. The IRS will also review their web site and recorded messages to
       ensure they effectively explain the Program’s purpose to taxpayers.
Recommendation 2: Provide the TACs with standardized internal controls for ensuring calls
to the 3709 Line are returned and appointments are scheduled appropriately.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a standardized method to capture the number of calls returned and the
       number of appointments made, which will be used to manage the 3709 Line Program.
       The IRS stated in order to ensure adherence with procedures defining when an
       appointment is needed, it will use clerical employees for transcription and routine
       callbacks, but transfer calls to technical employees whenever a taxpayer requests an
       appointment.
Recommendation 3: Establish procedures for the Field Assistance Office to provide
sufficient oversight of the 3709 Line Program to ensure it is meeting program objectives. For
example, as part of the quality assurance efforts, Field Assistance Office analysts could leave
messages on 3709 Lines periodically, to determine whether calls are returned and appointments
are made appropriately.
       Management’s Response: IRS management agreed with this recommendation and
       will establish a new quality review system to ensure adherence to the revised guidelines.
       The IRS stated Area Office Directors and Field Assistance Office Headquarters will
       conduct periodic reviews to ensure calls are returned within 2 days and requested
       appointments are scheduled. They stated the findings will be documented and actions
       taken to correct any discovered deficiencies.

The Field Assistance Office Does Not Have Reliable Management
Information Needed to Obtain an Accurate Overview of the
3709 Line Program
Inconsistent and inaccurate information prevented us from determining the overall impact of the
3709 Line Program and how it relates to the overall goals of the Field Assistance Office. The
Field Assistance Office does not maintain an overall list or database of the number of calls


                                                                                          Page 6
                        Taxpayers That Call Local Taxpayer Assistance Center
                       Telephone Numbers Are Unable to Schedule Appointments
                                   to Resolve Tax Account Issues


returned and appointments scheduled through the 3709 Lines. In addition, the data gathered are
not accurate or complete.
The number of incoming calls from taxpayers to the 3709 Lines and the number of outgoing calls
returned to taxpayers is tracked manually. TAC employees first keep a log of calls from
taxpayers, including their names and telephone numbers, the dates of the calls, and the dates the
calls were returned. There is no requirement that these logs be maintained.
From the logs, the total number of calls (units) is transferred to the employees’ timesheets, called
the Field Assistance Activity Report (Form 5311). The calls and time spent (hours) completing
3709 Line tasks are categorized into activity codes for tracking purposes. Instructions for
recording the calls are shown in Figure 2.
                      Figure 2: Timesheet Recording Instructions for
                 Documenting Calls Received and Returned by TAC Employees

                   Units: Include a unit for the following:               Hours: Include all time expended:

    Activity       No unit count should be recorded for retrieving        Recording outgoing message for the
    Code 01 -      3709 Line messages; report time only.                  3709 Line.
    Customer       Only employees returning telephone calls to
    Incoming                                                              Transcribing messages received on the
                   customers who left messages on the 3709 Line           3709 Lines.
    Telephone      should record a unit count. One unit should be
    Calls          recorded for each customer. (Outgoing)

    Activity       Include a unit count for all recorded telephone        Responding to and retrieving messages
    Code 35 -      calls received on the 3709 Lines, including calls      from the 3709 Lines.
    3709 Lines     during which the customer hung up prior to
                   leaving a message. (Incoming)
Source: Field Assistance Office manual.

From the individual Forms 5311, the units are manually input to the TACs’ Call Tracking
Worksheets. The Worksheets are submitted electronically every month to each of the five Area
Office7 Directors. Quarterly, the Area Office 3709 Lines Coordinators forward the completed
worksheets to the Field Assistance Office Headquarters 3709 Lines Coordinator for
consolidation.
Additionally, the data captured on Forms 5311 are input to the Field Assistance Office’s two
management information systems: the Resources Management Information System (which
creates a permanent record of units and time expended for each activity) and daily to the


7
 Field Assistance area offices are comprised of managers and analysts responsible for the oversight of TACs in a
defined geographical area.
                                                                                                           Page 7
                    Taxpayers That Call Local Taxpayer Assistance Center
                   Telephone Numbers Are Unable to Schedule Appointments
                               to Resolve Tax Account Issues


Business Performance Management System (BPMS). These systems are used by the Field
Assistance Office to oversee the TAC Program.
Neither the Call Tracking Worksheets, the Resources Management Information System, nor the
BPMS reports the number of appointments scheduled. Also, neither Systems’ reports show the
specific number of outgoing 3709 Line calls. Outgoing calls are tracked using Activity Code 01;
however, Activity Code 01 is also used to report a number of incoming calls for other TAC
activities.
In addition, an analysis of the Call Tracking Worksheets, Area Office Directors’ Quarterly
Reports, and BPMS reports showed the following inconsistencies:
   •   Outgoing calls reported on the Area Office Directors’ Quarterly Reports
       (October–December 2005 and January–March 2006) totaled 191,279 compared to
       178,210 outgoing calls reported on the BPMS.
   •   Incoming and outgoing calls on all 15 Call Tracking Sheets tested did not reconcile to the
       BPMS.
   •   Call Tracking Worksheets did not report the number of taxpayer calls returned
       accurately.
The lack of accurate and complete management information hinders the Field Assistance
Office’s ability to provide effective management oversight. Although only a small number of
taxpayers currently use the 3709 Lines to request appointments, without an accurate overview of
the program, management cannot provide adequate oversight or make proper determinations
regarding procedures and policies.
In addition, reliable information will be essential to IRS management as they develop the
Taxpayer Assistance Blueprint, which is a study for the IRS to develop a 5-year plan to improve
taxpayer services. Accurate and complete data will be essential in deciding what services
taxpayers need or desire.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Develop or modify the Field Assistance Office’s employee instructions
for tracking 3709 Line tasks to ensure management information systems have the information
needed to provide an overview of the 3709 Line Program, and establish a control to ensure it is
providing the appropriate services to meet the Field Assistance Office’s objectives and goals. As
the 3709 Line Program grows, the systems should be continually monitored to ensure they are
meeting current and future needs. Also, procedures should be developed to ensure the
information is current and accurate.


                                                                                             Page 8
            Taxpayers That Call Local Taxpayer Assistance Center
           Telephone Numbers Are Unable to Schedule Appointments
                       to Resolve Tax Account Issues


Management’s Response: IRS management agreed with this recommendation and
recognized the value of collecting additional information to better manage the 3709 Line
Program. The IRS is assessing its current data reporting requirements for the 3709 Line
Program and is evaluating the best method for capturing this data. The IRS stated it
realizes the need to separately capture callbacks on 3709 Line telephone messages, but
currently this data cannot be separated from other telephone activities.




                                                                                  Page 9
                   Taxpayers That Call Local Taxpayer Assistance Center
                  Telephone Numbers Are Unable to Schedule Appointments
                              to Resolve Tax Account Issues


                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether taxpayers receive quality customer service when
calling the IRS local area office telephone numbers to schedule appointments. To achieve this
objective, we:
I.     Reviewed Field Assistance Office internal guidelines for administering and managing the
       3709 Line Program. The Field Assistance Office is within the Wage and Investment
       Division Customer Assistance, Relationships, and Education function.
II.    Met with Field Assistance Office officials to discuss the goals of the 3709 Line Program,
       how it fits in the customer service strategy and plans, and the methodology for
       monitoring performance reported on the BPMS. The BPMS is a management
       information system used by the Field Assistance Office to oversee the TAC Program.
III.   Evaluated the 3709 Lines to determine if they assist the IRS in providing quality
       customer service.
       A. Developed 10 scenarios around 7 tax account and 3 tax law topics designed to require
          assistors to determine if our issues met the criteria for scheduling an appointment
          (e.g., to discuss setting up an installment agreement to pay outstanding taxes).
       B. Selected a sample of 50 TACs. We judgmentally selected large, medium, and small
          TACs from each of the five areas based on the number of taxpayer calls to the
          3709 Line. We did not take a statistical sample because we could not identify a
          population of taxpayer calls to the 3709 Lines.
       C. Called the 3709 Lines at the 50 selected TACs (36 with tax account questions and
          14 with tax law questions) during April 2006 and left messages requesting
          face-to-face appointments.
       D. Determined if the 3709 Lines’ automated messages are consistent and accurate.
       E. Determined if Field Assistance Office employees returned calls within the required
          2 business days.
       F. Determined if Field Assistance Office employees scheduled appointments for the
          36 calls with tax account questions.
IV.    For all 50 TACs contacted, provided our results to TAC managers to determine why
       procedures were not followed and what process is used to provide oversight.
V.     Discussed results and corrective actions with Field Assistance Office executives.
                                                                                           Page 10
                  Taxpayers That Call Local Taxpayer Assistance Center
                 Telephone Numbers Are Unable to Schedule Appointments
                             to Resolve Tax Account Issues


                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Jerome Antoine, Lead Auditor
Kenneth Carlson, Senior Auditor
Robert Baker, Auditor
Roberta Fuller, Auditor




                                                                                   Page 11
                   Taxpayers That Call Local Taxpayer Assistance Center
                  Telephone Numbers Are Unable to Schedule Appointments
                              to Resolve Tax Account Issues


                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 12
                          Taxpayers That Call Local Taxpayer Assistance Center
                         Telephone Numbers Are Unable to Schedule Appointments
                                     to Resolve Tax Account Issues


                                                                                              Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Taxpayer Burden – Potential; 31 instances in which auditors were not allowed to schedule
       face-to-face appointments (see page 3).

Methodology Used to Measure the Reported Benefit:
If the results for the 50 messages we left on 3709 Lines1 are indicative of the actual results
taxpayers receive when they request appointments, we estimate 31 instances were
inappropriately denied appointments.




1
    The local area office telephone numbers for the TACs are referred to as the 3709 Lines.
                                                                                                   Page 13
                           Taxpayers That Call Local Taxpayer Assistance Center
                          Telephone Numbers Are Unable to Schedule Appointments
                                      to Resolve Tax Account Issues


                                                                                                             Appendix V

                    Taxpayer Assistance Centers Called

                                          Fairbanks, Alaska                                Bronx
                                          Honolulu, Hawaii                                Buffalo
                                                                      Chesterfield   New York (290 BWY)
                          Casper                                      St. Joseph         Riverhead
                                                                                        White Plains                         Freehold
               Salt Lake City                                  St. Cloud
                                                                                       Bloomington
                                                                                     Fairview Heights
Vancouver                                                Wichita
                                                                                                                            Bridgeport
 Everett
                                                                                           Terre Haute                      Waterbury
                                                 Grand Forks
                                                                                           State College
                                                                                               Butler




                                                                                                                          Youngstown
                                                                                                                           Mansfield


                                                                                                                         Parkersburg

                                                                                                                         Richmond

                                                                                                                         Asheville
               Chico
                                                                                                                        Greensboro
             El Centro
            Sacramento
                                                                                                                   Atlanta (Koger)
              Salinas             Farmington
             San Diego
             Santa Ana                                                               Jackson
                                   Flagstaff
                                                                                                                    Daytona Beach
                                                                                                                     Gainesville
                                  Enid
                                 Lawton
                                                                   Little Rock                             Louisville
                                   Dallas
                                Corpus Christi                   Houma
                                                               Lake Charles




                                                                                                                            Page 14
                       Taxpayers That Call Local Taxpayer Assistance Center
                      Telephone Numbers Are Unable to Schedule Appointments
                                  to Resolve Tax Account Issues


                                                                                             Appendix VI

         Taxpayer Assistance Center Automated Script

Callers to 3709 Lines1 are greeted with an automated telephone message using a recorded script;
a live person does not answer the telephone. The Field Assistance Office2 requires its employees
to use an approved standardized script when recording the 3709 Line message. The general
script:
First.      Provides the address and hours of operation of the office. If the 3709 Line is used for
            multiple offices, the message will provide the addresses and hours of operations for
            all offices.
Second.     Advises callers that, if they are calling for help preparing a Federal income tax return
            and their income is $38,000 or less, they must visit the office. They cannot
            preschedule assistance on this line, and same day appointments may not be available.

Third.      Advises callers that, if they are calling to schedule an appointment for help with a
            Federal tax problem or to change an appointment, they should leave their name and
            telephone number, with area code, and someone will call them within 2 business
            days.
Fourth.     Advises callers of what numbers to call for various other IRS services and products,
            including referring callers to IRS.gov.




1
 The local area office telephone numbers for the TACs are referred to as the 3709 Lines.
2
 The Field Assistance Office is within the Wage and Investment Division Customer Assistance, Relationships, and
Education function.
                                                                                                       Page 15
                   Taxpayers That Call Local Taxpayer Assistance Center
                  Telephone Numbers Are Unable to Schedule Appointments
                              to Resolve Tax Account Issues


                                                                              Appendix VII

         Contact My Local Office Webpage on IRS.gov

When a taxpayer goes to IRS.gov to locate a TAC, he or she:
First.    Clicks “Contact IRS” at the top of the IRS web site.
Second.   Clicks “Contact My Local Office.” See Figure 1.
                      Figure 1: Contact My Local Office Webpage




               Source: IRS.gov.

Third.    Clicks on the appropriate State. At the top of the webpage, the same synopsis is
          provided for all States. At the bottom of the page is a list of TACs in the selected
          State, along with the address, local telephone number, and hours of operation of each
          TAC. See Figure 2.



                                                                                        Page 16
         Taxpayers That Call Local Taxpayer Assistance Center
        Telephone Numbers Are Unable to Schedule Appointments
                    to Resolve Tax Account Issues


                   Figure 2: Face-to-Face Tax Help




Source: IRS.gov.


                                                          Page 17
      Taxpayers That Call Local Taxpayer Assistance Center
     Telephone Numbers Are Unable to Schedule Appointments
                 to Resolve Tax Account Issues


                                                Appendix VIII

Management’s Response to the Draft Report




                                                       Page 18
 Taxpayers That Call Local Taxpayer Assistance Center
Telephone Numbers Are Unable to Schedule Appointments
            to Resolve Tax Account Issues




                                                  Page 19
 Taxpayers That Call Local Taxpayer Assistance Center
Telephone Numbers Are Unable to Schedule Appointments
            to Resolve Tax Account Issues




                                                  Page 20
 Taxpayers That Call Local Taxpayer Assistance Center
Telephone Numbers Are Unable to Schedule Appointments
            to Resolve Tax Account Issues




                                                  Page 21
 Taxpayers That Call Local Taxpayer Assistance Center
Telephone Numbers Are Unable to Schedule Appointments
            to Resolve Tax Account Issues




                                                  Page 22
